'O:;~ff-
O      Ice 0 f i




INSPECTOR GENERAL
',"        "           ,.',       •   I         :   •      ".   •       ..'        :,'":'           •                             "


                                                                                    ,   ,       .

,     ~:       "   •          •           ' .       ,'.'    •       ~     ::.'.'   :',,:'   "           •   ~   ,     t




           Review of Ways to Increase the Economy
           and Efficiency of the Process for Conducting
           Section 337 Investigations


           Report No. IG-03-94




                                                                                                            Al v 'H ist
                                                                                                                    ~'~'!:::i u       ..   -1904.
                                                                                                                                           (  ,.....



                                                                                                                    CatE iSSUBd
             INSPECfOR GENERAL




)

             UNITED STATES INTERNATIONAL TRADE COMMISSION

                                   WASHINGTON, D.C. 20436


    August 19, 1994


                         :ttftraw '.ftft DltJdIlI 1M :. . . .
                      .... ·tft~:":_Nl"l:t~1tIlt~


    The Office of Inspector General has completed a review of the process for
    conducting investigations of infringements of patents, trademarks, copyrights,
    or mask works and other unfair practices in import trade, hereafter called
    section 337 investigations. The objective of this review was to evaluate ways
    to increase the economy and efficiency of the process.

    The Commission is required, upon the filing of a complaint, or authorized on
    its own initiative to investigate alleged violations of section 337 of the Tariff
    Act of 1930. The investigation is assigned to an Administrative Law Judge who
    conducts the proceedings in accordance with the Administrative Procedure Act.
    The Office of Unfair Import Investigations acts as an independent party
    representing the public interest in these proceedings. The Commission voted to
    institute 11 investigations in Fiscal Year 1992 and 17 in Fiscal Year 1993.

    We found that the process to conduct 337 investigations could be improved in
    three areas - - paperwork, physical evidence, and voting procedures - - as follows:

          The paperwork process could be improved by decreasing the number of Federal
          Register notices, better coordination with other Federal agencies, issuing
          reports in a timely manner, and simplifying the distribution and filing
          systems.

          The Commission does not have a written policy that specifically addresses
          retention of physical evidence; in practice, the Commission stored physical
          evidence that was part of the record for 337 investigations for lengthy
          periods, sometimes far longer than was necessary.

          The Commission rules need to be changed to address two voting procedures -
          the provision that one Commissioner can initiate certain actions and the
          absence of definitive guidance on the resolution of tie votes.

    Recommendations to address the above findings are made to the General Counsel
    and Secretary on pages 8, 11, and 14 of the report.
    The General Counsel took no position on two recommendations, agreed with two
    recommmendations, had no disagreement with one recommendation, said one
)   recommendation was moot, and had no comment on two recommendations. She agreed
    to prepare action requests in order for the Commission to formally address the
    issues needing policy decisions on ~11 but three of the recommendations.   She
    agreed to prepare an action request for two recommendations if so directed by
    the Commission. One recommendation was moot.

    The Secretary fully supported the recommendation to coordinate a Commission-
    wide effort to develop an electronic filing system and agreed with the
    recommendation to provide input for the revision of the retention schedule in
    accordance with the Federal Records Act. She proposed an alternative system to
    our recommendation for disposal of property which we concurred was acceptable;
    she transferred virtually all eligible property to the Office of Management
    Services for disposal in conformance with this policy.

    A summary of the General Counsel's and/or Secretary's comments are presented on
    pages 9, 12, and 14 of the report. Their comments are presented in entirety as
    appendices to the report.




                                      !t:::~t~~
                                        Inspector General
                                         TABLE OF CONTENTS

    )
                                                                              Page

        INTRODUCTION AND SCOPE                                                   1

        BACKGROUND                                                               2
\

        FINDINGS AND RECOMMENDATIONS                                             3

        PAPERWORK REDUCTION                                                      3

              Federal Register Notices                                           3

              Coordination with Other Federal Agencies                           4

              Report Publication                                                 5

              Commission Distribution and Filing Systems                         6

              Recommendations                                                    B

              Commission Comments                                                9

        PROPERTY RETENTION                                                       9

              Recommendations                                                   11

              Commission Comments and OIG Analysis                              12

        VOTING PROCEDURES                                                       12

              One Commissioner Votes                                            13

              Tie Votes                                                         13

              Recommendations                                                   14

              Commission Comments                                               14

        Attachment -     Statistics on 337 Investigations

        Appendix

              A -      Memorandum from the Secretary to the Chairman, dated July 27, 1994,
                       on Response to Inspector General's June 1994 Draft Report

              B -      Memorandum from the General Counsel to the Inspector General, dated
                       August B, 1994, on Comments of the OIG on the Inspector General's
                       Draft Report
)
    The Office of Inspector General has completed a review of the process for
    conducting investigations of infringements of patents, trademarks, copyrights,
    or mask works and other unfair practices in import trade, hereafter called
    section 337 investigations. The objective of this review was to evaluate ways
    to increase the economy and efficiency of the process.

    Our review was conducted in June 1993 through February 1994. The fieldwork was
    performed at the Commission offices in Washington, D.C.          We identified
    investigations initiated and/or completed in Fiscal Years (FYs) 1992 and 1993
    and reviewed various Commission documents to develop background and statistical
    information on these investigations. According to the Activity Reporting System,
    44,163 hours and $1,233,655 were expended in FY 1992 and 44,087 hours and
    $1,304,737 in FY 1993 to conduct section 337 investigations.

    We interviewed officials in the three offices with primary roles in section 337
    investigations - the Office of the Administrative Law Judges (ALJ) , Office of
    General Counsel (OGC) , and the Office of Unfair Import Investigations (OUII) -
    concerning their roles and responsibilities. We interviewed officials in the
    Office of the Secretary and Office of Management Services (OMS) concerning their
    roles relating to official records and evidence. We also contacted a member of
    each Commissioners' office to discuss problems and/or potential improvements in
    the 337 process.

    We contacted representatives from the Department of Health and Human Services
    (HHS) , Department of Justice, Federal Trade Commission (FTC) and the Customs
    Service. We discussed how these agencies used copies of documents that were
    provided during the course of each section 337 investigation.

    We reviewed the law authorizing 337 investigations, Commission rules, and
    Commission practices. We compared the documents to identify mandatory versus
    voluntary Commission practices.  We evaluated the costs and benefits of the
    voluntary practices.

    As part of this review, we planned to evaluate the role of OUII as a third party
    in the section 337 proceedings since its role to represent the public interest
    has changed. However, the CommissionJs action at the budget hearing on November
    17, 1993, indicated an affirmation of the role played by OUII, even if different
    from that originally established by the law. Therefore, this part of our review
    was deleted.

    We reviewed the Federal Managers    I Financial Integrity Act report for the
    assessable unit "Investigations Under Section 337" for FY 1992 when an internal
    control review was conducted and the FY 1993 letter of assurance. No weaknesses
    relevant to this report were identified.

    This review was performed in accordance with applicable generally accepted
    government auditing standards. Accordingly, the review included an examination
    of internal controls and other auditing procedures that were considered necessary
    under the circumstances.
)
    The Trade Act of 1974 gives the power to enforce section 337 of the Tariff Act
    of 1930 to the Commission. Section 337 (19 U.S.C. § 1337) declares unlawful:

             imports that infringe on valid U.S patents and registered trademarks,
             copyrights and mask work; and

             unfair methods of competition and unfair acts in importation that have
             the threat or effect of destroying or injuring an industry in the United
             States or restraining trade and commerce in the United States.

    The Commission is required, upon the filing of a complaint, or authorized on
    its own initiative to investigate alleged violations of section 337.       The
    investigation is assigned to an Administrative Law Judge (judge hereafter) who
    conducts the proceedings in accordance with the Administrative Procedure Act
    (APA).  aUII acts as an independent party representing the public interest in
    these proceedings.

    An investigation can last up to twelve to eighteen months, depending on whether
    the Commission determines the investigation to be more complicated. During the
    proceeding, the judge issues orders and notices and makes the evidentiary record.
    As a general rule, the judge issues orders with initial determinations (IDs) in
    response to motions. The findings of fact on the investigation are set forth
    in a final ID that is not issued as an order.      The Commission can choose to
    review IDs in part or in whole and can schedule hearings or oral arguments as
    part of their review.

    IDs become effective when acted upon by the Commission 30 or 45 days after the
    final ID is issued by the ALJ.    If the Commission finds a violation, it may
    issue an exclusion or cease and desist order. The President may disapprove "for
    policy reasons" the Commission's determination within 60 days of notification,
    in which case the Commission's order will have no effect. A party can appeal
    a final determination to the United States Court of Appeals for the Federal
    Circuit.    The aGC defends all appeals on behalf of the Commission.
    Investigations can also be terminated·by a settlement agreement, consent orders,
    summary determination, or by a finding of default.

    The Commission voted to institute 11 investigations in FY 1992 and 17 in FY
    1993. Statistics concerning these investigations such as the number designated
    more complicated, the disposition, and number of days to complete are presented
    in the attachment.

    During the time of this review, the Commission was operating under interim rules
    governing investigations and enforcement procedures pertaining to Unfair
    Practices in Import Trade that were issued on August 29, 1988, and effective
    immediately. Minor revisions to the interim rules were adopted in November and
    December 1988 and October 1993. A proposed final rule was published in November
    1992 for comments. aGC sent an analysis of comments and a revised version of
    the rules to the Commission in April and August 1993. A final version of the
    rules was approved by the Commission on June 15, 1994, and published in the
    Federal Register on August 1, 1994. The regulations have an effective date of
    August 31, 1994.

                                            2
)
    We found that the process to conduct 337 investigations could be improved in
    three areas: paperwork, physical evidence, and voting procedures. The paperwork
    process could be improved by decreasing the number of Federal Register notices,
    better coordination with other Federal agencies, issuing reports in a timely
    manner, and simplifying the distribution and filing systems. The Commission does
    not have a written policy that specifically addresses retention of physical
    evidence; in practice, the Commission stored physical evidence that was part of
    the record for 337 investigations for lengthy periods, sometimes far longer than
    was necessary. The Commission rules need to be changed to add~ess two voting
    procedures, the provision that one Commissioner can initiate certain actions
    and the absence of definitive guidance on the resolution of tie votes.




    The most frequent comment that we heard during our review concerned the extent
    of paperwork associated with the 337 process.     Even at a minimum level, the
    process requires a great deal of paper. However, we identified four areas where
    the paperwork burden could be improved. 1) The Commission published multiple
    notices in the Federal Register for each investigation, many of which were not
    required by law or regulation. 2) Documents were routinely sent to other Federal
    agencies for coordination even though the other agencies rarely commented and
    often did not even review the documents.    3) Section 337 reports were issued
    sporadically and often long after the Commission's decision.             4) The
    dissemination and retention of official documents included distributing many
    documents for information purposes, sending duplicate copies of documents, and
    maintaining filing systems in three offices.


    Federal Register Notices

    The Commission published multiple notices in the Federal Register for each
    investigation, many of which were not required by law. We believe the practice
    of publishing notices other than those required by law should be discontinued
    considering the fee to publish, the separate notice to parties, and the
    availability of notices from sources other than the Federal Register.

    Federal law and Commission rules set forth that the Commission will publish
    notices in the Federal Register when an investigation is instituted, designated
    more complicated, or has a finding of violation (the Sunshine Act requires a
    notice of all Commission hearings). Commission rules also require that a notice
    be published when the investigation involves a licensing or other agreement, a
    complaint of a violation, or a petition to modify or rescind a Commission action.
    In practice, a notice of all Commission decisions, determinations, designations,
    and conferences are published.

    We reviewed 72 Federal Register notices issued for investigations 337-TA-33l to
    358 and found that over half of the notices, 38, were not required by law or
    regulation.   Another 22 notices were required by regulation but not law. Only
    12 notices were required by law.

                                            3
    An Assistant General Counsel said that the rules, which were written around
)   1975, and the practices reflect the Commission's desire to keep the public
    informed.  Publication in the Federal Register also facilitates research.  We
    believe that the law reflects what the public I s interest is:       when an
    investigation is instituted, designated more complicated, has a finding of
    violation, or there is a hearing.   The parties receive a copy of the notices
    irrespective of the Federal Register notices.    Other interested parties can
    access the notices on LEXIS and/or WESTLAW.

    We believe that the Commission should discontinue publishing notices in the
    Federal Register except for those required by law to save staff time and the
    publication fee.   For every notice to be published in the Federal Register,
    Commission staff must submit to the Secretary the following: one single spaced
    copy, three double-spaced copies, and a computer diskette or E-Mail transmission.
    Federal Register notices cost the agency $100 per column (not prorated for
    partial columns) or $300 per page. The Commission spent $86,050 in FY 1993 on
    Federal Register notices. The"cost for section 337-related publications was not
    available, but is probably a substantial portion of the expenses. Our file of
    section 337 notices issued between April 1, 1992, and October 28, 1993, which
    was not comprehensive, had 133 pages.

    ALJ agreed that the Federal Register notices were not needed and suggested that
    the law be changed to delete all requirements except for initiating
    investigations and hearings.    OUII said that publication could be limited to
    the documents specified in the law if the revised regulations provided that
    revisions as well as original notices were published.      The Secretary had no
    opinion on what should be published, but concurred that fewer notices would save
    the Commission time and money.


    Coordination with Other Federal Agencies

    In accordance with Commission rules, documents were routinely sent to other
    Federal agencies for coordination even though the other agencies rarely commented
    and often did not even review the documents. We believe that the rules should
    be revised to reduce requirements for routinely providing documents and that a
    system should be established to generate meaningful input to fulfill the
    Commission I s legal mandate to consult and coordinate with other Federal agencies.

    Federal law requires that during the course of each section 337 investigation,
    the Commission shall consult with, and seek advice and information from, the
    Department of Health, Education and Welfare (HEW), the Department of Justice,
    FTC, and such other departments and agencies as it considers appropriate (the
    U.S. Customs Service of the Treasury Department is the only other department or
    agency routinely considered appropriate).     19 U.S.C. §1337 (b) (2).      The
    Commission has adopted the following rules implementing this mandate:

          The Commission, upon institution of an investigation, shall serve copies
          of the complaint and notice of investigation (and any accompanying motion
          for temporary relief) upon HHS (which replaces HEW), the Department of
          Justice, the FTC, and such other agencies and departments as the Commission
          considers appropriate. 19 CFR 210.13 (b).



                                             4
     HHS, the Department of Justice, the FTC, and such other departments and
     agencies as the Commission deems appropriate shall be served with a copy
     of the initial determination. 19 CFR 210.53 (e).

     The notice that the Commission has granted the petition for review shall
     be served by the Secretary on all parties, HHS, the Department of Justice,
     the FTC, and such other departments and agencies as the Commission deems
     appropriate. 19 CFR 210.54 (b) (3).

     The Commission shall consult with and seek advice and information from
     HHS, the Department of Justice, the FTC, and such other departments and
     agencies as it considers appropriate, concerning the subject matter of
     the complaint and the effect its actions (general or limited exclusion of
     articles from entry and/or a cease and desist order, or exclusion of
     articles from entry under bond and/or a temporary cease and desist order)
     under section 337 of the Tariff Act shall have upon the public health and
     welfare, competi tive conditions in the U. S. economy, the production of 1 ike
     or directly competitive articles in the United States, and U.S. consumers.
     19 CFR 210.58 (a) (2).

The law also states that the Commission shall in appropriate matters act in
conj unction and cooperation with the Treasury Department, the Department of
Commerce, the FTC, or any other departments, or independent establishments of
the Government. 19 U.S.C. §1334.

HHS, the Department of Justice, the FTC, and the Customs Service each receive
one copy of the public version of every complaint and notice of investigation
(and any accompanying motion for temporary relief), all initial determinations
with a request for written comments, and a notice of completion.     The White
House, Treasury Department, and U.S. Trade Representative each receive copies
(one, one and two respectively) of any Commission decision of a violation.

We contacted representatives from HHS, Justice, FTC and the Customs Service,
who all had similar comments. They said that resource constraints had severely
limited their ability to review the 337 documents; two said that the documents
were immediately discarded. The HHS representative said that he thought HHSwas
receiving the documents because an attorney who is no longer with HHS had been
interested in the investigations; he was not aware of the statutory provisions.
Several representatives also said that, even if they had time, they could only
perform a limited review because they receive the public versions of the
documents which do not include all of the necessary information.            The
representatives said that comments were rarely, if ever, submitted.

We discussed the development of an alternative system to meet the requirements
of the law to consult with, and seek advice and information from, other Federal
agencies in some meaningful manner. All agency representatives indicated that
a better system than the current one should be developed. Commission offices
also agreed that the current system was not meaningful.


Report Publication

The Commission does not have a policy on printing reports on 337 investigations;
however, a practice had developed regarding which of the investigations decided
by Commission vote were printed as reports. In January 1994, the practice was

                                        5
    memorialized in an internal OGC memorandum that stated a report is not published
    for investigations which are terminated by settlement agreement or consent order
)   and a report generally will be published for determinations for which the
    Commission issues an opinion. The memorandum does not include timeframes for
    publishing the report.

    At the time of our review, the Commission had decided 25 investigations in FYs
    1992 and 1993. Reports were issued for five investigations with a finding of
    violation and two temporary relief decisions. Reports were not issued for the
    20 investigations that were terminated other than by a Commission vote (18) or
    a vote for no violation (2). The reports, which consisted of documents issued
    during the course of the investigation, were sometimes printed months after the
    investigation was completed.

    The Commission had no timeframes for issuing 337 reports, so sometimes the
    documents were published months after the Commission's decisions were issued.
    The publication dates for the eight reports issued in FYs 1992 and 1993 ranged
    from two weeks to eight months after the date of the Commission's decision.
    The Assistant General Counsel said publication is not a high priority because
    the documents that make up the report (the final notice, the public version of
    Commission order(s), Commission opinion(s), and the ALJ final ID) are available
    from the Secretary and services such.as LEXIS and WESTLAW.

    In 1993, the final reports were sent to 395 entities on the Commission's mailing
    list. The list was mostly law firms, universities, and libraries, but also had
    multiple Federal agencies, publications, 16 embassies, product associations (e. g.
    peanut butter and nut association, American Ski Federation), and private
    businesses (e.g. Peoria Tube Forming Co .• IBM, and Sears Roebuck). After being
    validated in late 1993, instead of decreasing, the list increased to 623 entities
    in March 1994.

    We discussed with Commission staff whether section 337 reports need to be issued
    at all since the distribution to parties, Federal Register notices, availability
    of public versions of documents, and press releases provide a significant amount
    of information to the public.     The Secretary and OUII said that there is a
    definite demand for the publications and the report format facilitates requests
    and distribution. The Secretary said that they would prefer that the report be
    prepared immediately following the investigation as are the Title VII reports
    to reduce the demands for individual documents. Several offices suggested that
    a service, such as Commerce Clearing House, could be used to make the documents
    available to the public.


    Commission Distribution and Filing Systems

    The dissemination and retention of official documents includes distribution of
    many documents for information purposes, sending duplicate copies of documents,
    and maintaining filing systems in three offices.     Making documents available
    electronically to all authorized users would enable the Secretary to reduce hard
    copy distribution and possibly reduce the number of copies that parties have to
    submit.




                                            6
       Distribution

       To initiate a 337 investigation, the complainant must submit the original
       plus 14 copies of the complaint to the Commission. These documents are
       distributed as follows:

         4 - Dockets, original in official file, copy in public file, two used
             for distribution to other agencies (latter two were distributed
             to the Offices of Industries and Executive and International
....
             Liaison until approximately a year ago).
         2 - OGC, one to the attorney and one to files.
         2 - OUII, one to attorney and one to files.
         6 - Commission, one to each Commissioner.
         1 - ALJ, to the Chief or designated judge.

       For matters before the judge, the party must submit the original plus. 6
       copies which are distributed as follows:

          2   Dockets, original in official file and copy in public file.
          2 - OGC, one to attorney and one to files.
          2 - OUII, one to attorney and one to files.
          1 - ALJ, one to designated judge.

       During the course of the investigation, all notices, IDs and motions before
       the Commission receive the same distribution as the complaint. (Note: The
       ALJ delivers one copy of initial determinations to the Secretary who makes
       copies for distribution.)

       The Commissioners' staff described themselves as being swamped with paper.
       Most of the documents were sent to the Commission to keep staff members
       aware of how an investigation is progressing. Often, these documents were
       skimmed and discarded. The Commission also receives a copy of documents
       requiring Commission action (e.g., IDs and motions) from the Secretary and
       a full or partial copy attached to the analysis prepared by OGC.       The
       distribution from the Secretary provided the Commissioners' offices with
       an immediate opportunity to review the document. But in practice, a review
       was usually not done until the OGCmemorandum was received.

       Filing

       We found that three offices maintained filing systems for section 337
       documents (we did not consider the document files maintained by the ALJ
       judges or OGC and OUII attorneys as filing systems). The Dockets Section
       in the Office of the Secretary maintained the official Commission files.
       OGC and OUII maintained unofficial filing systems with many identical
       documents in their offices, primarily for use by staff conducting reseach.
       The three offices had many of the same documents in their files.      As a
       rule, hard copy documents for active investigations were physically
       maintained in each of the three offices. The Secretary stored hard copy
       documents on lektrievers by investigation number and periodically
       transferred documents to microfiche which was stored in the main building.
       OGC stored hard copy documents, except work product, on a lektriever by
       investigation number and periodically sent the hard copy documents for
       closed investigations to storage. OGC also maintained work product files
       (privileged memoranda) on a WordPerfect system.     OUII stored hard copy

                                         7
          documents of orders, notices and certain filings in binders by
          investigation number.       OUII also has an electronic database of
)         approximately 8,700 of the most significant documents issued for 337
          investigations that is available to the Commission, ALJ, OGC and the Trade
          Remedy' Assistance Office; input into the OUII electronic database was about
          a year behind at the time of our review.

    At a February 1994 meeting of the Information Resources Management Steering
    Committee, the Secretary expressed interest in obtaining an imaging system that
    could scan documents and provide access to the public and Commission staff. We
    believe that such a system would be preferable to maintaining filing systems in
    three offices and could be designed to limit and provide access appropriately
    to Commission employees and the public. We agree that the Se~retary, who is
    responsible for maintaining official Commission files, should be the lead office
    on this project.

    After an electronic filing system is in place, we believe the paperwork could
    be reduced by revising the distri~ution system.     For example, the Secretary
    could discontinue the hard copy distribution of documents solely for
    informational purposes and possibly even for action purposes as they would be
    available for review on the system.      This change, in conjunction with the
    recommendation to revise the distribution to other agencies, may also enable
    the Commission to reduce the number of copies parties are required to submit
    which would be a benefit to the parties.

    The Secretary said that they would like to cut down on distribution in any way
    that was acceptable to the Commissioners and offices involved; however, any
    revision to the distribution system would have to be agreed upon by all
    Commissioners and all Commissioners would have to be treated the same.    OUII
    said that receipt of a copy from the Secretary was important in managing the
    investigations, but one copy would be sufficient in the majority of cases when
    OUll was also served as a party. OGC stated, and we agree, that some hard copy
    documents would still be necessary for effective review.


    Recommendations

    We recommend that the:

            1.   General Counsel, with the assistance of the Secretary, prepare an
                 Administrative Order or Notice for the Chairman'S signature to cease
                 publication of any notices except those required by law and or
                 regulation;

            2.   General Counsel propose amending the rules to delete requirements
                 for publishing notices that are not required by law, after which
                 time the Secretary would cease to publish these;

            3.   General Counsel propose amended rules for consulting and coordinating
                 with other Federal agencies to eliminate requirements for providing
                 documents and establish a system to generate meaningful input;

            4.   General Counsel develop a Commission policy, possibly a revision of
                 Administrative Order 85-6, on publishing section 337 reports that
                 includes guidance on issuing the reports in a timely manner;

                                            8
            5.   Secretary coordinate a Commission-wide effort to develop an
)                electronic filing system and then revise the distribution system to
                 m1n1m1ze the number of hard copy documents distributed for
                 information or are duplicates; and

            6.   General Counsel,     in consultation with the Secretary after
                 recommendations 2 and 5 are implemented, determine the appropriate
                 number of copies to be submitted with a complaint and during the
                 course of the investigation and propose appropriate language to amend
                 the Commission rules.


    Commission Comments

    The General Counsel took no position on recommendations land 2, agreed with
    recommmendations 3 and 6, and had no disagreement with recommendation 4. She
    agreed to circulate an action request containing proposed rules in order to
    implement these recommendations.

    The General Counsel stated that she could recommend a policy on publishing
    section 337 reports, but that the Commission would have to adopt it. We agree
    that her memorandum of January 1994 could serve as a starting point for
    developing a more fully articulated Commission policy. Since issuing the draft
    report, we have spoken with OMS about printing policies and procedures.       The
    section 337 reports were specifically identified as publications whose appearance
    could be improved and for which cost savings were possible by using the interleaf
    system adopted for other publications. These issues should be addressed in the
    Commission policy.

    The General Counsel also stated that recent section 337 reports have been
    published in a timely fashion due in large measure to the fact that one staff
    person has been assigned responsibility for insuring the prompt publication of
    such reports. We found that the six investigations decided by the Commission
    in FY 1994 were published, on average, in a little over a month.

    The Secretary fully supports recommendation 5 and is participating on two
    committees that are working toward determining the range of capabilities of
    optical imaging and text retrieval systems and identifying capabilities that the
    agency requires and the best system to fulfill agency needs in a cost effective
    manner.




    We found that the Commission stored physical evidence that was part of the record
    for 337 investigations, sometimes for periods far longer than was necessary.
    Items stored were evidence for investigations terminated with no violation and
    investigations for which the exclusion orders had expired.      These items were
    stored pending return to the parties or sufficient accumulation to be turned over
    to OMS for disposal. The remaining items were stored pending expiration of the
    patent on an outstanding exclusion order or were nonpatent items relating to an
    exclusion order.


                                             9
    The Commission does not have a written policy that specifically addresses
    retention of physical evidence.     The Commission's Records Disposal Schedule
)   (currently being updated by the Office of Information Services) provides guidance
    on the retention of official docket case files, which technically includes the
    physical evidence; however, the guidance only applies to paper copies. According
    to the Secretary, the practice is to retain the physical evidence until there
    is a finding of no violation and the time for appeals has elapsed or until the
    patent to which the exclusion order applies expires (nonpatent items are kept
    forever) .  When the physical evidence was no longer needed, the Secretary
    notified the party either by mail or telephone.       The Secretary periodically
    notified OMS of items that were not claimed.       OMS disposed of the items in
    accordance with federal property management guidelines for abandoned property.

    When we reviewed the property in July 1993, we found that the Commission was
    storing a substantial amount of property that should have been disposed of years
    ago. This property included:

          Items for 24 investigations with findings of no violation that were decided
          from 1977 through 1989 such as 5 boxes of parts from television sets (also
          used on a Title VII investigation) and 13 boxes with track lighting
          systems; and

          Items for 11 investigations for which the exclusion orders expired between
          1987 and 1993 such as 6 electric slow cookers and 3 boxes of lighting
          switches.

    The Office of the Secretary had copies of letters sent to parties for 15 of the
    36 investigations although other parties may have been called but no
    documentation was maintained. All of the letters were dated September 1991 and
    advised the parties that the items would be destroyed in November 1991.

    The file had 21 responses of which 17 parties asked that property be returned
    from 10 investigations. At the time we took an inventory, none of the property
    had been returned. A legal documents clerk said that after the responses were
    received, a decision was made to get signed releases for the items. This effort
    was not pursued due to a lack of manpower.

    After we sampled the inventory of items on July 29, 1993, the Office of the
    Secretary called a party who had requested that 17 boxes of double sided floppy
    disk drives be returned. The party picked up the boxes on August 30, 1993.

    Prior to October 1993, the last time the Secretary notified OMS in writing of
    items needing disposal was in September 1987. Even after items were given to
    OMS, disposal was a lengthy process. The items were not disposed of before the
    Commission's move in December 1987 and January 1988 which necessitated moving
    the abandoned property from the Commission's old building to the Navy Yard. In
    March 1990, OMS notified the General Services Administration (GSA) of the
    abandoned property and GSA accepted the items in May 1990.

    The Secretary's staff said that OMS had not been notified of items for disposal
    between 1987 and 1993 pending sufficient accumulation. They understood that the
    Commission had to hire a contractor to transport the items to the GSA property
    center and that one large shipment was preferable to multiple small ones. Eleven
    boxes were given to OMS for destruction at the end of March 1994; the items had
    not been destroyed as of June 3, 1994, pending fund availability.

                                           10
    The Secretary said that items are stored approximately seven years since most
)   patent items in Commission investigations have a life of 14 to 17 years and the
/   investigations are initiated sometime after the patent is effective. We found
    that the seven year estimate was reasonably accurate for the investigations with
    expired outstanding exclusion orders (average retention period from date of order
    to patent expiration was 6.3 years).          However, the items for the 18
    investigations with current outstanding exclusion orders have an average
    retention period of 12.5 years. These items include 11 boxes of amorphous metal
    and 15 boxes of DRAMs. The exclusion orders for the nonpatent items were issued
    from 1980 through 1988, 5 to 13 years already and no provisions for disposing
    of this property. The 10 investigations have 30 boxes of items including a cast
    iron stove.

    The Commission incurs various expenses in storing the physical evidence. The
    Secretary has approximately 1,100 square feet of storage space at an estimated
    annual cost of $7,200. Staff must input and track the items, notify parties,
    and arrange for disposal.

    We believe that provisions should be incorporated into the Commission regulations
    to facilitate disposal of the property.       For example, the Commission could
    require parties to claim property within 30 days of the completion of an
    investigation, which would be defined as including any appeals, or the evidence
    will be disposed of as abandoned property.        If additional notification is
    cons idered necessary, a notice could be included in the announcement of the final
    decision.    These changes would eliminate the need to maintain items for long
    periods, delete the special notice to parties, and eliminate costs to return
    items. OMS should be notified promptly (within 30 days) when property becomes
    available for disposal and OMS should notify GSA within 30 days of the abandoned
    property. Excessing the items in smaller increments should allow for much of
    it to be transported in the minivan to the GSA property center.           Promptly
    excessing property should allow the Commission to reduce the amount of storage
    space needed.

    According to the Secretary and OGC, the reason for retaining physical evidence
    through the life of the patent is to have the item in case of subsequent appeals
    or enforcement actions. OUll said that the ideal situation would be to have the
    physical evidence available in case of an enforcement proceeding or to give
    advisory opinions, although in some instances the physical evidence was not
    necessarily relevant to the order (e.g., an entire personal computer for a case
    on computer chips).   The ALJ said that if orders were written clearly, there
    would. be no need for physical evidence even in the case of an enforcement
    proceeding and they knew of no other agency that followed this practice. aGC
    also said that the Federal Records Act has guidance concerning the disposition
    of Federal records which would have to be considered in any policies adopted by
    the Commission.


    Recommendations

    We recommend that the:

            7.   Secretary ensure that all property has been returned to the parties
                 who wanted items, or notify OMS that property is ready for disposal;


                                            11
        8.   General Counsel propose changes to the Commission rules concerning
             retrieval or abandonment of physical evidence; and

        9.   Secretary provide input to the Office of Information Services for
             a policy on retention of physical evidence to be included in the
             Commission'S Records Disposal Schedule.


Commission Comments and OIG Analysis

The Secretary agreed with recommendation 7. The Secretary has had parties pick
up property or transferred responsibility to OMS for the property on all but one
of the investigations referenced in the finding as eligible for disposal.       In
August 1994, the Secretary notified OMS that the property for 31 investigations
was ready for disposal.    The disposition of the property transferred before
August 1994 could not be ascertained, "but OMS intends to move all excess property
from the Navy Yard to the Cryden Center in the near future for disposal.      The
property for 1 investigation with no violation is a bottle containing
formaldehyde; this is being moved to the storage facility at Waldorf, Maryland
pending determination of the proper method for disposal.

In addition, the Secretary established office procedures to ensure proper
disposal in the future of exhibits after the appeals process or patent
expiration. In this system, the Commission bears the burden of sending notices
to parties.   Furthermore, no changes were proposed for the disposal of non-
patent items which are kept indefinitely.      We believe regulatory changes
requiring parties to claim exhibits and providing for disposal of non-patent
items would be a more efficient system.      However, on the basis that the
Chairman's approval of the Secretary's response is an indication that the
Commission agrees with her approach, we will concur that the system is an
acceptable alternative.

The General Counsel said that recommendation 8, changes to the Commission rules
concerning retrieval or abandonment of physical evidence, is a moot issue due
to the adoption of the above procedures by the Secretary.

The Secretary agreed with recommendation 9 and will provide input for the
revision of the retention schedule in accordance with the Federal Records Act.




We identified two voting procedures which we believe need to be addressed by
changing the Commission rules.   The rules provide that one Commissioner can
initiate reviews of initial determinations and oral arguments, rather than at
least half of the Commissioners which is a standard for other decisions.
Conversely, the Commiss ion rules do not, and we think they should, provide
definitive guidance on the resolution of tie votes in the final disposition of
section 337 investigations which is not addressed in the Commission statutes.

The statutes governing Commission activities do not specifically address voting
to initiate reviews or tie votes. Commission rules address voting to initiate
reviews but not tie votes. The common law rule for multiple - member adminis-


                                       12
    trative agencies, articulated in the frequently-cited 1930 Bakelite decision
    ar1s1ng from a Commission section 337 determination, is that a majority of a
)   quorum is necessary to act for the agency.


    One Commissioner Votes

    Since 1982, Commission rules have provided that several significant actions,
    reviewing initial determinations and scheduling oral arguments, can be initiated
    by one Commissioner. We believe that changing the requirement to at least half
    of the Commissioners voting would demonstrate a strong Commission interest in
    an issue and reduce the burden on parties when such interest does not exist.

    Until the early 1980s, the ALl issued recommended determinations which were
    reviewed in entirety by the Commission. This process was inefficient in that
    all issues were reviewed by the Commissioners. Regulations drafted in May 1981,
    which were not approved for publication, provided for review when at least a
    majority less one of the participating Commissioners so votes, which is the
    standard used by the Supreme Court to review cases. Draft regulations published
    in December 1981 for comment provided for review when at least one of the
    participating Commissioners so votes.      As suggested by one Commissioner, a
    similar provision was added to the final rules issued in June 1982.

    Reportedly, the draft regulations of May 1981 were changed because one
    Commissioner thought that she might be the sole vote for reviews concerning the
    requirement for substantial injury in deciding an investigation. Since 1981,
    that Commissioner has left and the injury requirement has been reduced
    significantly, but the provisions for one vote have been carried forward into
    the current interim rules and proposed final rules.

    The statutes governing Commission activities do not specifically address these
    voting issues; however, we believe that some provisions are useful as guidance.
    The statutes provide that the Commission is authorized to initiate investigations
    and hold hearings when one-half of the Commissioners voting agree. 19 U.S.C.
    §1330 (d) (5). We believe that initiating review of issues and oral arguments
    are comparable decisions that should follow the same guidance.

    We agree with an opinion expressed by a past Commissioner in an October 1992
    memorandum that the practice of reviewing an initial determination even if only
    one Commissioner wants to do so is not a good idea.          At a time when the
    Commission is reviewing its operations to see what processes could be streamlined
    and how to reduce the burden on its customers, we believe that it is not only
    reasonable but a responsible decision to require that at least half of the
    Commissioners vote for review or oral arguments.


    Tie Votes

    Several Commissioners' staff members expressed concern with the lack of
    definitive guidance on the resolution of tie votes in the final disposition of
    section 337 investigations. Neither the Commission statutes nor the regulations
    address tie votes. In practice, the Commission has always avoided a tie vote,
    but according to the Commissioners' staff, this has sometimes required that a
    Commissioner agree to change a vote. If definitive guidance was issued on tie
    votes, Commissioners would not feel pressured to avoid a tie situation.

                                           13
    The General Counsel researched the issues of tie votes and issued a memorandum
)   in December 1992. In summary, she stated that existing law could be given two
    conflicting interpretations; that she doubts that the Commission has the
    authority to promulgate a rule stating that a tie vote affirms the judge's ID;
    and that a tie breaker rule could result in difficulties in issuance of an agency
    remedial order.

    The Commission has obviously managed to resolve any tie votes on 337 questions,
    but we believe clarification of the tie vote issue would be beneficial.
    Preferably, clarification could be made in Commission regulations. We believe
    that an interpretation that a tie vote affirms the ID is a reasonable
    interpretation of the law which requires the Commission ~o utilize APA
    procedures.  The General Counsel states in her memorandum that there is some
    judicial authority to support the view that a tie vote would serve to affirm the
    ID. She also states that at least one agency has adopted rules to clarify a tie
    vote situation, so the Commission would not be setting a precedent. As to the
    difficulty in issuing a remedial order, we think that the Commission would
    properly address the issue.

    We think that it would be a service to the parties to clarify this issue. DUll
    said that they have received inquiries from parties as to what happens when there
    is a tie vote and they respond that such a situation has never occurred. Due
    to their significance, such regulations should be published for comment before
    adoption.   If comments questioning the Commission's authority to adopt such
    regulations are submitted, the Commission could change from a regulatory
    clarification to requesting a technical clarification in the law.


    Recommendations

    We recommend that the General Counsel propose language to revise the Commission
    rules to:

           10.   Incorporate provisions requ~r~ng that one-half of the Commissioners
                 voting agree for review or oral arguments; and

           11.   Clarify a tie vote situation.


    Commission Comments

    The General Counsel had no comments on recommendations 10 and 11 and planned no
    action absent further direction from the Commission. On August 10, 1994, the
    Chairman requested that each Commissioner consider the relevent recommendations
    and provide the General Counsel with guidance as to whether they believe it would
    be useful to prepare proposed rules.




                                           14
                                                            Attachment


                       STATISTICS ON 337 INVESTIGATIONS
                             (As of July 31, 1994)

                                              FY 1992     FY 1993

Number of Investigations

      Initiated                                  11          17

      Designated more Complicated                 6           8
         By Commission                            3           1
         By Administrative Law Judge              3           7

      Completed                                  11          15
        Terminated other than by Commission
          vote (e.g. settlement agreement)        8          12
        Commission vote for no violation          1           1
        Commission vote for violation             2           2



Number of Months to Complete

      All investigations                         10.5        10.1

      Designated more complicated
         (maximum 18 months)                     13.0        10.6
      Not designated more complicated
         (maximum 12 months)                      7.4         9.6

      Terminated other than by Commission
          vote (e.g. settlement agreement)        8.9         9.8
      Commission vote                            14.5        11.5




                                        15
                 OFFICE OF mE SECRETARY
                                                                           Appendix A




\.
    ;
/




                 UNITED STATES INTERNATIONAL TRADE COMMISSION

                                          WASHINGTON. D.C.   20436




        MEMORANDUM                                                   July 27, 1994
                                                                     SE-R-025
        TO:           CHAIRMAN PETER S. WATSON

        FROM:         The Secretary       IJ'~ K. ~
        SUBJECT:      Response to Inspector General's June 1994 Draft Report:
                      "Review of Ways to Increase the Economy and Efficiency
                      of the Process for Conducting section 337
                      Investigations"

        The following comments are being provided in response to the
        recommendations in the above draft report:

        1.      General Counsel, with the assistance of the secretary,
                prepare an Administrative Order or Notice for the Chairman's
                siqnature to cease publication of any notices except those
                required by law and or regulation.

                a Assuming the Inspector General's proposal to limit
                pUblication of notices would cause a significant savings in
                staff time and Federal Register costs, the Secretary
                believes it should be implemented, provided that

                     1. It would be the primary responsibility of the
                     originating office to submit only the required notices
                     for publication, while the Secretary's staff would be
                     responsible for final review of notices submitted.

                     2. The savings is not offset to the extent that
                     service to the public is excessively and unnecessarily
                     diminiShed.  It should be noted that although parties
                     are notified personally, the Federal Register is a
                     reliable source that many people depend on for vital
                     information.

                      3. The Commission is in full agreement with the
                      cutback.
SE-R-025
Page 2

     o If, upon his further review, a decision is made by the
     Chairman to limit publication of notices, the Secretary will
     provide assistance to the General Counsel at that time.
     o In making a decision to approve this recommendation,
     however, the Chairman should be aware that in early 1993,
     procedures were put in place by the Office of the Secretary
     which resulted in a significant cost savings to the Federal
     Register account, and consequently, the Commis'sion. This
     office now provides the Federal Register with an electronic
     version of our notices, so that they can reformat the
     information rather than retyping the complete document, as
     was done previously.
s.   Secretary coordinate a Commission-wide effort to develop an
     electronic ~ilinq system and then revise the distribution
     system to minimize the number of hard copy documents
     distributed for informatioD.
     o The Secretary fully supports this proposal, and in fact,
     has been working toward that goal since she came on board
     the Commission a little over a year ago.
     o There now exists an Executive Committee for Imaging,
     consisting of Lynn Levine, Chair, Mark Garfinkel, Lyn
     Schlitt and Donna Koehnke, and also an Imaging Working
     Committee, consisting of Tom Jarvis, Paul Bardos, Ruby
     Dionne and Kevin Richards. These two committees are working
     toward determining the range of capabilities of optical
     imaging and text retrieval systems and identifying
     capabilities that the agency requires and the best system to
     fulfill agency needs in a cost effective manner. The work
     schedule for completion of this assignment is being
     finalized.
7.   Secretary ensure that all property has been returned to the
     parties who wanted items, or that OMS has been notified that
     property is available for disposal.
     o The Secretary agrees that the Commission has had problems
     with exhibits which were kept for an unreasonable length of
     time, and within the past six months, has revised the
     procedures to ensure proper disposal of such exhibits. They
     are:
           1. Once all appeals are exhausted, a letter is sent to
           the parties advising them of physical exhibits and
           offering to return such exhibits. (See attached)
SE-R-025
Page 3


             2. If there is an exclusion order, the exhibits are
             kept until the patent expires and then the party is
             contacted for return of the physical exhibits.
             3. If after a reasonable time (30 days) the party has
             not responded, a list of exhibits available for
             disposal is forwarded to the Office of Management
             Services for proper disposal.
      o These new procedures should do much to alleviate the past
      problems, and may, in fact, render moot the Inspector
      General's proposal. The Secretary, however, will continue
      to monitor in order to ensure these procedures continue to
      be effective.

9.    secretary provide input to OKS for a policy on retention of
      physical evidence to be included in the commission's Records
      Disposal Schedule.
      o The Secretary agrees that the Commission's retention
      schedule should be revised, clearly identifying the proper
      disposal'of exhibits and physical evidence in 337 cases.
      o The responsibility of this now comes under the Office of
      Information Services, rather than the Office of Management
      Services, and if approved by the Chairman, the Secretary
      will provide input for the revision of that retention
      schedule, in accordance with the Federal Records Act.

Attachment
cc:   The Commission
      Inspector General
      General Counsel
      Director, Office of Administration
                                          ATTACHMENT


                                 SAMPLE

...




      Dear:

      The Office of The Secretary is in possession of physical
      exhibits, titled                     in investigation
      ______. We are in the process of returning or destroying
      all physical exhibits involving exclusion order cases which has
      reached the expiration date, and cases without appeal rights.

      The Commission has completed the investigation and has no
      further need for the physical exhibits. We would like to dispose
      of these exhibits and wish to know if you desire to have them
      returned to you.

      If you choose to have them disposed of, we will do so in the
      appropriate manner. If you choose, however, to have them
      returned , we will need to have:

           (1) A letter within 30 days stating you desire to have
      them returned.

            (2) You must make arrangements with your staff, as well
      as the staff in the Docket Section, to have the exhibits picked
      up at your expense.

      If you have any questions concerning this matter, please do not
      hesitate to call me at 202-205-2799.

                                        Sincerely,


                                        Ruby J. Dionne
                                        Chief, Docket Section
                                                                                 Appendix B



        MEMORANDUM
                                                                     August 8. 199'1
    )   TO:           THE INSPECTOR GENERAL       1                  GC-R-429
        FROM:         The General Counsel   2          I
                                                • .'   ~   _   J



        SUBJECT:      Comments of the Office of the General Counsel on the Inspector
                      General's Draft Report: "Review of Ways to Increase the Economy
,                     and Efficiency of Section 337 Investigations," dated June 17,
                      1994. 3


                      This memorandum provides the comments of the Office of the General

        Counsel on the above-referenced draft IG report.           The report concludes that

        the process of conducting section 337 investigations can be improved in three

        areas - - paperwork reduction, retention of physical evidence, and voting

        procedures - - and makes recommendations for effecting such improvements.              Our

        comments on the IG's recommendations in each area are given below.

        I.    Paperwork Reduction

                The IG's draft report identifies four areas where the paperwork burden

        of section 337 investigations could be reduced:

                1) The Commission published multiple notices in the Federal Register
                for each investigation, many of which were not required by law or
                regulation. 2) Documents were routinely sent to other Federal agencies
                for coordination even though the other agencies rarely commented and
                often did not even review the documents. 3) Section 337 reports were
                issued sporadically and often long after the Commission'S decision.
                4) The dissemination and re£ention of official documents included
                distributing many documents for information purposes, sending duplicate
                copies of documents, and maintaining filing systems in three offices. 4




          Copies to the Commission, Secretary Koehnke, \Chief Judge Saxon, Lorin
        Goodrich, Lynn Levine, and Phyllis Smithey.
        2    This memorandum was prepared by Tim Yaworski (rm. 707F, tel. 205-3096).

             Law Library References:   Section 337 process, IG.
        4
             Draft IG Report ("Report") at p. 3.
    a.   Federal Register notices

           The IG's draft report notes that the Commission publishes many section
,
1


)   337 notices in the Federal Register that are not required by statute, and

    recommends that the publication of such notices be discontinued.     5


    Specifically. the draft report recommends (1) that OGC, with the assistance of

    the ,Secretary. prepare   a~   Administrative Order or Notice for the'Chairman's

    signature to cease the publication of any notices except those required by law

    or by regulation. and (2) that aGC propose amending the Commission's section

    337 rules to delete requirements for publishing notices not required by

    statute.

          OGC takes no position on these recommendations except to note that the

    publication of notices not required by statute serves the useful purpose of

    keeping the public informed about section 337 investigations.      Whether the

    expense of continuing to publish such· notices outweighs the benefits of a

    better informed public is a policy judgment for the Commission.

           If the Commission decides to implement the draft report's recommendation

    to publish only notices required by statute, then several Commission rules

    will need to be amended.       Given the impending need for OGC to devote time to

    'drafting rules to implement the expected statutory amendments to section 337,

    we do not believe that work on such amendments could be initiated by this

    office until after January.!, 1995.       Of course, if it becomes possible for

    this office to begin work prior to next year, we will do so.      We note that the

    recommended amendments cannot be included in the rules needed to implement the


    5  The draft report notes that '(1) notices of institution of an investigation,
    (2) notices designating an investigation "more complicated," and (3) notices
    of a Commission finding of violation of section 337 are required by statute.
    The publication of certain other notices is required by Commission rule.


                                               2
        expected statutory changes because the latter are likely to be interim rul.es

        promulgated without notice and comment.            As such, the interim rules will have

    /   to be limited to only those necessary for implementing the statutory changes.

                aGC Action To Be Taken:     aGC will circulate an action request containing

        proposed rules that cover any of the draft report's recommendations on this
,
        issue that the C6mmission wishes to implement.

        b.    Service of section 337 documents on other federal agencies

                The IG's draft report notes that certain nonconfidential section 337

        documents are routinely sent to other federal agencies (the Department of

        Health and Human Services, the Department of Justice, the Federal Trade

        Commission, and the U.S. Customs Service) despite the fact that those agencies

        rarely comment on or even review the documents.            The draft report recommends

        that "a system . . . should be established to generate meaningful input to

        fulfill the Commission's legal mandate         6   to consult and coordinate with other

        Federal agencies."     7   Specifically, the draft report recommends that OGC

        propose amending the rules for consulting and coordinating with other federal

        agencies "to eliminate requirements for providing documents and establish a

        system to generate meaningful input."      8


                aGC agrees that the present system for complying with the statutory

        mandate to consult with other federal agencies in the course of section 337


        6
             Section 337(b)(2) provides as follows:
                During the course of each investigation under this section, the
                Commission shall consult with, and seek advice and information from, the
                Department of Health and Human Services, the Department of Justice, the
                Federal Trade Commission, and such other departments and agencies as it
                considers appropriate.
        7    Report at p. 4.
        8    Report at p. 9.


                                                       3
    investigations needs improvement.     Too many resources are expended in serving

    documents on other federal agencies in relation to the amount of useful

    information and comment provided by those agencies.     ~e   concur with the IG

    that an improved system for obtaining other agency input needs to be devised.

    Implementation of such an improved system will require, at a minimum, revision
,   of some section 337 rules.   9   For the reasons discussed in the preceding

    section of this memorandum, we do not believe it feasible to start work on

    such rule revisions until after January 1, 1995.     As noted previously, if it

    becomes possible to commence work earlier, we will do so.

          aGe Action To Be Taken:     aGC will circulate an action request containing

    proposed rules that cover any of the draft report's recommendations on this

    issue that the Commission wishes to implement.

    c.   Publication of Commission section 337 reports

          The IG's draft report notes that no written guidance on the publication

    of reports of section 337 investigations existed until January 1994, when an

    internal aGC memorandum was issued to aGC staff memorializing prior practice

    in this regard.   The 'draft report also notes that the Commission has issued no

    written guidance on the issuance of section 337 reports in a timely manner.

    The draft report recommends that ·aGC "develop a Commission policy . . . 'on

    publishing section 337 reports that includes guidance on issuing the reports

    in a timely manner."

          aGC has no disagreement with the draft report's recommendation.       We

    note, however, that absent a delegation of authority, aGC can recommend a

    policy but the Commission would have to adopt it.     The aGC memorandum of


    9 At least the following current rules may need revision:       210.13, 210.53,
    210.54, 210.58, 211.21, and 211.59.


                                             4
     January 1994 could serve as the starting point for developing a more fully-

     articulated Commission policy on the publication of section 337 reports.

     Finally, we note that recent section 337 reports have been published in timely

     fashion, due in large measure to the fact than an           aGe   staff person

          **    has been assigned responsibility in      aGe   for insuring the prompt

     publLcation of such reports, and we have every expectation that the timely
..
     publication of section 337 reports' will continue.

               aGe   Action To Be Taken:   aGe   will circulate an action request proposing

     implementation of anY,of the draft report's recommendations on this issue that

     the Commission wishes to implement.

     d.    Internal distribution and filing of section 337 documents

               The IGls draft report reviews the current distribution and filing of

     section 337 documents within the Commission, and suggests that installation of

     an electronic filing system could allow a reduction in the amount of paper

     that is currently distributed ~d filed.

               aGe   agrees with the draft report to the extent that we believe the

     feasibility of an electronic storage system should be explored, but we note

     several additional points that the Commission should consider.              The records in

     question are working documents.         They are used by    aGe   to prepare memoranda and

     appellate briefs and'by aUIl to prepare pleadings while cases are before an

     administrative law jUdge.        Moreover, Commissioner staff persons may wish to

     use the records in working on cases to which they are assigned.

               The practical problems that we foresee in working with electronically-

     stored documents include the facts that (1) only one electronically-stored

     page at a time can be viewed on a PC monitor, thus precluding direct

     comparison of one page against another; (2) electronically-stored documents

     **Name deleted.
                                                   5
cannot be highlighted, tabbed, or otherwise marked or annotated for ease of

reference, so users will continue to want hard copies to read and mark; and

(3) it may be difficult to retrieve an electronically-stored document once it

has been entered in the system because of problems with identifying such

documents in the data base.      We therefore agree with the view expressed in the

draft report that. for the foreseeable future,· it will be-necessary for the

Commission to retain some hard copy documents for effective review.     However,

the idea of using an electronic filing system appears to have merit and should

be pursued.

       aGC Action To be Taken:     None at the present time, pending guidance and

instruction from the Technical Review Committee and the Information Resources

Management Steering Committee

II.   Retention of Physical Evidence from Section 337 Investigations

      The IG's draft report notes that items of physical evidence from

completed section 337 investigations are sometimes retained by the Commission

longer than necessary.   Specifically, the draft report states that physical

evidence from investigations terminated on the basis of a finding of no

violation of section 337 is sometimes kept after the exhaustion of all

appeals, and that physical evidence from investigations that result in the

issuance of a patent-based exclusion order" is sometimes retained after the

underlying patent has expired.    10




10  We note that physical evidence from all section 337 investigations needs
to be retained until the exhaustion of all appeals, and that physical evidence
from section 337 investigations that result in the issuance of remedial orders
needs to be retained while those orders are in force. As noted in the draft
report, patent-based exclusion orders expire when the underlying patent
expires. Other types of exclusion orders, such as, for example, those based
on trademarks, can last indefinitely.


                                          6
         The IG's draft report notes that the Commission has no written        ~olicy

specifically addressing the retention of physical evidence from section 337

investigations.     The draft report recommends that "provisions.             be

incorporated into the Commission regulations to facilitate disposal of"

section 337 physical evidence, and proposes that OGC suggest changes to the

Commission'S rules    conce~ing    retrieval    ~r   abandonment of physical evidence.

         aGC agrees that formulation of a written policy on the retention of

physical evidence from section 337 investigations may be desirable, assuming

the measures outlined in the Secretary's memorandum of July 27, 1994 (SE-R-

025) do not resolve the problem.        We question, however, whether the

implementation of such a policy will require that the Commission'S rules be

amended.     It may be preferable to set forth Commission policy on retention of

physical evidence in the form of a Commission Directive.          11   In any event and

as noted in the draft report, any such rules or directives will have to be

consistent with the requirements of the Federal Records Act (44 V.S.C. §§ 3301

et seq.).

         aGe Action To Be Taken:   Further action is considered moot due to the

adoption by the Secretary of the measures outlined in SE-R-025.

III.     Commission Voting Procedures

         The IG's'draft report identifies two Commission section 337 voting

procedures that the IG believes can be addressed by changing the Commission'S

rules.     These procedures are the rule that a single Commissioner can initiate



11 The "originating office n for preparation of such a directive would be the
Office of the Secretary or the Office of Administration, and the procedures
se~ forth in USITC Directive 0001.3, Directive Management System (April 5,
1993), would have to be followed. The estimated time for preparation and
approval of such a directive is about six months.


                                            7
     oral arguments before the Commission and trigger review of initial

     determinations, and the absence of a rule providing definitive guidance on the

     resolution of tie votes in the final disposition of section 337

     investigations.

     a.   One Commissioner votes

~.          The draft report notes that under the Commission's current rules the

     vote of only a single participating Commissioner is required (1) to initiate

     oral argument before the Commission (19 C.F.R. § 210.56(a»     and (2) to

     initiate review of initial determinations (IDs) issued by Commission

     administrative law judges ( 19 C.F.R. § 210.54(b)(3».     The draft report

     recommends changing the rules to require that at least one-half of the

     participating Commissioners vote to hold oral argument or to review IDs.       It

     states that nit is not only reasonable but a responsible decision to require

     that at least half of the Commissioners vote for review or oral arguments.n         12


            OGe has no comment on the draft report's recommendations on this issue

     except to note that the issue is one of Commission policy having to do with

     the deference to be accorded by the Commission to each of its members.       We do

     note, however, that the present rules seem to have worked reasonably we11

     ·since their inception in the early 1980s.   This office is unaware of any

     dissatisfaction among Commissioners or their staffs with respect· to the above-

     mentioned Commission rules.·   If such dissatisfaction exists, it will

     presumably be brought to the attention of the IG and/or OGG.




     12   Report at 13.


                                             8
b.   Tie votes

       The IG's draft report states that several Commissioner staff persons

expressed concern with the lack of definitive guidance on the resolution of

tie votes in the final disposition of section 337 investigations.           The draft

report correctly notes that neither statute nor Commission rule addresses this

issue, and states· that nclarification of the tie vote issue would be

beneficial."     13   The draft report recommends that OGC propose amendments to

the Commission's rules to "clarify" tie vote situations.           The' report does not

express a preference as to how tie vote situations should be resolved.          14


       OGC has four comments on the draft report's recommendation.          First, as

noted in the draft report, this office prepared a memorandum on the legality

of a "tie-breaker" regulation in December 1992,      15   and concluded that there

are "serious doubts" that the Commission has the authority to promulgate such

a regulation under the current law.       The memorandum also pointed out certain

practical problems with a tie-breaker regulation.         16   We have not changed our


13


14  One obvious possibility is a rule providing that in the event that the
Commission is equally divided as to its disposition of a final ID under
review, the ID will be affirmed.

15  GC-P-37l, dated Dec. ~1, 1992. Copies of this OGC memorandum were
attached to the copies of the IG's draft report distributed to the Commission.

16  In brief, our memorandum noted that a "tie breaker" regulation would not
address remedy because under the Commissionts rules ALJ initial determinations
on violation of section 337 do not address remedy. Thus, in cases where
application of a "tie breaker n regulation results in a Commission finding that
a violation of section 337 exists, a Commission that is evenly-divided on
violation would still have to consider remedy. The memorandum went on to note
the unlikelihood of Commissioners who had found no violation of section 337
voting to impose a remedy. As a result, the combination of an evenly-divided
Commission and a "tie breaker" regulation could merely exchange the
"procedural limbo" of an impasse on the question of violation for a different
type of limbo in which the Commission is deadlocked over whether to issue a
                                                                 (continued ... )

                                           9
    views on these matters in the interim.

              Second, we question the need for a tie-breaker regulation, assuming the

    Commission has the authority to promulgate one.      The draft report correctly

    notes that the Commission has always avoided missing a statutory deadline

    because of a deadlock caused by a tie vote.       Inane fairly recent case,   17   the

•   Commission was for several months deadlocked on whether to reverse an ID

    granting summary determination of no violation of section 337.       However, the

    investigation was ultimately completed within statutory deadlines, although it

    was necessary to declare the case "more complicated" and extend      ~he   statutory

    deadline to 18 months.      This case is the only one of which we are aware where

    a tie vote caused a significant problem.

              Third, Congress is, as noted previously, now in the process of amending

    section 337.      To our knowledge, none of the current proposals for amending the

    statute include a provision addressing the tie-vote issue, and we are advised

    by personnel at USTR that the prospect of getting such a provision added at

    this late stage of the legislative process is virtually nil.

              Finally, we note again that while the IG and/or OGC could recommend a

    new policy on tie votes, only a majority of the Commission can adopt such a

    policy.

              OGG Action To Be Taken:   None, absent further direction from the

    Commission.




         continued)
    16( •••
    remedy. See GC-P-371 at p. 11.
f
•   17 Inv. No. 337-TA-334, Certain Condensers, Parts Thereof and Products
    Containing Same, Including Air Conditioners for Automobiles.


                                               10
